The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
    UNITED STATES INTERNATIONAL TRADE COMMISSION
                         OFFICE OF INSPECTOR GENERAL

                                 WASHINGTON, DC 20436




June 24, 2013                                                      IG-LL-008

Chairman Williamson:

This memorandum transmits the Office of Inspector General’s final report, Audit of
Perimeter Network Security, OIG-AR-13-09. This audit focused on whether the
Commission’s perimeter defense was effective. In finalizing this report, we analyzed
management’s comments to our draft report and have included those comments in their
entirety as Appendix A.

This audit found that the Commission’s perimeter defense was effective, and it identified
two areas for improvement. This report presents seven recommendations to further secure
the Commission’s perimeter.

Thank you for the courtesies extended to the auditors during this review.




Philip M. Heneghan
Inspector General
                               U.S. International Trade Commission
                                                       Audit Report

                                                    Table of Contents

Results of Audit ............................................................................................. 1

Areas for Improvement ................................................................................ 2
   Area for Improvement 1: The Commission should implement ongoing scanning to
   detect vulnerabilities. ...................................................................................................... 2

   Area for Improvement 2: The Commission should remediate current webserver
   vulnerabilities.................................................................................................................. 3

Objective, Scope and Methodology ............................................................. 4

Appendix A: Management Comments on Draft Report.......................... A




OIG-AR-13-09                                                   -i-
                     U.S. International Trade Commission
                                     Audit Report


                                 Results of Audit
The purpose of this audit was to answer the question:

       Is ITCNet's perimeter defense effective?

Yes. ITCNet’s perimeter defense is effective.

We assessed the Commission’s perimeter defense and were unable to gain unauthorized
access to the Commission’s systems. The Commission’s perimeter defense continues to
be effective.

A penetration test is an attempt to breach a network and gain unauthorized access to its
resources. In July, 2012, we conducted a penetration test of the ITC network using public
information. Our search for public information on the ITC network servers identified a
network range of 64 IP addresses known to host ITC services. We used software to detect
servers and their responding ports, and then we scanned these servers for vulnerabilities.

The ITC’s computer network has over 500 systems, consisting of servers, desktops,
laptops, printers, phones, and network infrastructure devices. Every computer is
connected to the network with a unique IP (Internet Protocol) address. For example, a
desktop PC on the ITC network might have an address like 192.168.50.40. A typical
Windows PC could have more than 20 listening ports. Each port serves a specific
function: port 80 is used to request web pages from a webserver; and port 25 is used to
transfer email. It would be normal for a network of 500 systems to present 10,000
responding ports, all potential targets for attack.

The Commission’s effective perimeter defense exhibits the following traits:

   x   The Commission’s intrusion detection system effectively prevents port scanning.
   x   It was not possible to gain unauthorized access to identified services within the
       scope of the audit.
   x   The majority of listening services we identified all seemed to be functions
       necessary for the ITC to conduct business.

In summary, the ITC network’s perimeter defense effectively prevented our intrusion
attempts.

An effective perimeter defense is a significant component of a complete network security
program. An attacker can exploit a network in a number of ways. In general, she can
attack the network perimeter as we did, or she can bypass the perimeter by tricking a user
into letting her in. Means of accomplishing this could be as simple as having a user open
a malicious email or visit an infected website, or by leaving an infected USB drive to be
found by an employee near the front door of the building. While the ITC network’s


OIG-AR-13-09                               -1-
                     U.S. International Trade Commission
                                     Audit Report


current perimeter defense is effective, continuous attention and improvement are required
to ensure that it remains effective in the future.

Our penetration testing did reveal two potential areas for improvement: the agency should
implement ongoing scanning to detect vulnerabilities, and it should remediate current
webserver vulnerabilities. These areas for improvement are detailed below.



                            Areas for Improvement

                            Area for Improvement 1:
           The Commission should implement ongoing scanning to detect
                                vulnerabilities.


Networks and their systems evolve over time, either deliberately or by chance. Secure
systems installed today will become insecure over time due to newly discovered
vulnerabilities in their underlying operating system or application software. Furthermore,
any time changes are made to the existing environment, vulnerabilities can be
inadvertently introduced. The best means of mediating this risk is through vulnerability
scanning, on both a periodic basis and on-demand any time a change is made to the
environment.

Even though it is licensed to use software that can perform vulnerability scanning of its
perimeter, the ITC was not performing this function. The penetration test we performed
as part of this audit found several potential vulnerabilities. Because previous tests were
not performed, it was not known how long these systems had been vulnerable. The longer
systems remain vulnerable, the more likely it is that they will be exploited. Regular
testing would have identified these vulnerabilities and enabled timely remediation.

In order to execute the mission of the agency, senior management must remain informed
of risks to their underlying systems. Regular perimeter scans are a critical source of
information describing risks to an agency’s information systems.

Recommendation 1: Perform scheduled, routine scanning of the perimeter on at least a
monthly basis.

Recommendation 2: Perform perimeter scans after new hardware or software is
introduced to the ITC perimeter network.




OIG-AR-13-09                               -2-
                      U.S. International Trade Commission
                                       Audit Report



                           Area for Improvement 2:
        The Commission should remediate current webserver vulnerabilities.


The penetration test we performed identified several potential vulnerabilities in the
agency’s webservers. We were unable to exploit them using the tools and methods
within our scope of testing, but a determined attacker could use these vulnerabilities to
exploit the ITC’s systems.

We identified three types of potential vulnerabilities affecting four of the agency’s
internet-facing servers. One was specific to the type and configuration of vendor
software, which was an obsolete and vulnerable version of Apache software. An upgrade
to a newer version of Apache would resolve the first issue.

The remaining two types of vulnerabilities are specific to the custom software
applications providing website services. These affect two systems, and are known as
“Cross-Site Scripting” and “SQL Injection” vulnerabilities.

Cross-Site Scripting (XSS) vulnerabilities can be used to redirect users of a website to a
different website without their knowledge or permission. A recent higher-profile
example includes the exploit in November, 2012 of the Yahoo email service, which
resulted in account breaches and the proliferation of spam.

The SQL Injection vulnerabilities found indicates that it may be possible for an external
attacker to change the behavior of the application to directly access or possibly modify
the internal ITC database supporting the application. This type of vulnerability is
frequently used to modify a once-legitimate website to sell male enhancement drugs,
embarrassing the owners of the website. Firms that store private data such as passwords
or credit card numbers are at significant financial risk from these types of attacks.

The ITC has a responsibility to control access to its data, and to protect users of its public
websites from malicious activity. It is possible to improve security by reconfiguring the
existing webservers to remediate the issues found in the perimeter scan.

Recommendation 3: Upgrade vulnerable software to current, secure versions.

Recommendation 4: Upgrade encrypted websites to current standards.

Recommendation 5: Remediate known Cross-Site Scripting vulnerabilities.

Recommendation 6: Remediate known SQL Injection vulnerabilities.

Recommendation 7: Perform routine maintenance to identify and remediate
vulnerabilities affecting public websites.

OIG-AR-13-09                                 -3-
                     U.S. International Trade Commission
                                     Audit Report



                    Objective, Scope and Methodology
Objective:
       Is the ITC network's perimeter defense effective?

Scope:
This audit included all externally available wired nodes on the USITC network. The
device list includes but was not limited to all servers, workstations, routers, email
gateways and firewalls. The access types attempted included login attempts for the
purposes of information gathering, privilege escalation, and establishment of jumping
points to other areas of the USITC network infrastructure.


Methodology:
   1. From an unfiltered IP address, performed unauthenticated network and device
      discovery using a toolset to include but not limited to Nessus, Wireshark, and
      other applications within the BackTrack tool suite.
   2. Reviewed and analyzed protocol encryption types, as applicable.
   3. Performed automated and manual login attacks using Hydra and/or other tools.
   4. Attempted to gain shell access using BackTrack tools.




OIG-AR-13-09                              -4-
               U.S. International Trade Commission
                           Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-13-09                  - A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
